IN THE
SUPREME COURT OF THE UNITED STATES

TIMOTHY CARVER,
Petitioner,
Vv.
UNITED STATES OF AMERICA,

Respondent.
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

Petitioner, TIMOTHY CARVER, pursuant to SuP CT. R. 39.1, respectfully moves for leave
to file the accompanying petition for writ of certiorari in the Supreme Court of the United States
without payment of costs and to proceed in forma pauperis.

Petitioner was previously found financially unable to obtain counsel and counsel was
appointed to represent Petitioner pursuant to 18 U.S.C. ยง 3006A. Therefore, in reliance upon RULE
39.1 and ยง 3006A(d)(6), Petitioner has not attached the affidavit which would otherwise be required
by 28 U.S.C. ยง 1746.

ap . 2 7

ad hespeds E $s Sh 4.5
ee ee
Jacqueline E. Shapiro
40 N.W. 3rd Street,
Penthouse One
Miami, FL 33128
Tel. 305-403-8207

Miami, Florida
March 2021
